Nos. 18A1170/18A1171

In the Supreme Court of the United States
MICHIGAN SENATE, ET AL., APPLICANTS
V.

LEAGUE OF WOMEN VOTERS OF MICHIGAN, ET AL.
LEE CHATFIELD, ET AL., APPLICANTS
V.

LEAGUE OF WOMEN VOTERS OF MICHIGAN, ET AL.

MICHIGAN SECRETARY OF STATE’S OPPOSITION TO INTERVENORS’
EMERGENCY APPLICATIONS FOR A STAY
To the Honorable Sonia Sotomayor,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Sixth Circuit
INTRODUCTION
Several weeks ago, a three-judge district court in Michigan conducted a threeday trial and held that Michigan’s 2011 district maps for the State House, State
Senate, and federal Congressional districts were unconstitutionally gerrymandered
to suppress and dilute the votes of the Intervenors’ opposition party. More
specifically, the unconstitutional 2011 plan, according to the unanimous three-judge
panel, confers a “strong, systematic, and durable structural advantage” of
“historically extreme” proportions on one political party while inflicting an “extremely
grave” constitutional harm upon voters affiliated with the other political party.
Consequently, the district court ordered the Michigan Legislature to redraw district

-2maps in time for the November 2020 election cycle, and set out a timeline on which
to do so. Rather than comply with the district court’s order, the Intervenors now seek
to stay it on the assumption that this Court will overturn established precedent,
exclaiming that they will be irreparably harmed if they cannot attend to their desired
legislative “priorities.”
The facts and circumstances of this case, however, do not warrant a stay.
Intervenors have shown only that complying with the district court’s order would be
inconvenient, not that it would irreparably harm them in any way. To the contrary,
granting a stay is likely to indelibly harm the public interest, as all interested
parties—voters, candidates, political parties, and election administrators—would
benefit from having as much time as possible to discern and implement the logistics
of a new map. Having the maps in place sooner rather than later is critical to ensuring
that candidates are able to comply with statutory filing deadlines, that ballots can be
issued and elections administered in an orderly manner, and that votes can be
counted accurately and expeditiously. As such, the Secretary of State respectfully
opposes Intervenors’ request for a stay in this case.
STATEMENT OF THE CASE
The League of Women Voters of Michigan, along with several League members
and individual Democratic voters (collectively, Plaintiffs), brought this action in
December 2017, challenging Michigan’s 2011 state and federal legislative
apportionment statutes (the Enacted Plan) as the result of unconstitutional partisan
gerrymandering in violation of the First and Fourteenth Amendments. (ECF 1,

-3Compl.) In particular, Plaintiffs asserted that the 2011 Michigan Legislature, at the
time controlled by the Republican Party, purposefully “packed” or “cracked” nine
Congressional Districts, ten Michigan Senate Districts, and fifteen Michigan House
Districts to favor Republican candidates by diluting Democratic votes (the challenged
districts). (ECF 268, Op. & Order, Page ID 11622.)
Several members of Michigan’s Republican Congressional Delegation moved to
intervene shortly after the case commenced, on February 28, 2018 (ECF 21), and two
members of Michigan’s House of Representatives subsequently filed their
intervention motion on July 12, 2018 (ECF 70). After both applications were initially
denied and appealed, the House and Congressional Intervenors were ultimately
granted intervention. (See U.S. Court of Appeals for the Sixth Circuit, Case Nos. 181437 and No. 18-2383; ECF 103; ECF 166.)
In the interim, the Plaintiffs, the Secretary of State, and Congressional
Intervenors fully briefed and argued motions to dismiss and for summary judgment
on various grounds, including standing and laches (e.g., ECF 11, 117, 119, 121). On
November 30, 2018, the district court dismissed Plaintiffs’ statewide claims for lack
of standing (ECF 54), but concluded that Plaintiffs had standing to pursue their
district-specific claims (see ECF 143, Op. on Summ. J., Page ID 5306–27). The district
court also extensively considered the parties’ arguments regarding justiciability and
concluded that judicially manageable standards exist to analyze the Plaintiffs’ First
and Fourteenth Amendment claims (see id., Page ID 5327–36).

-4Shortly after the district court issued its opinion, on January 1, 2019,
Michigan’s newly elected Secretary of State, Jocelyn Benson, assumed office and
subsequently entered into settlement negotiations to resolve this case through the
entry of a consent decree, which would have resolved all but eleven of the State House
Districts at issue. Intervenors declined to engage substantively in those negotiations.
(See generally ECF 211, § I.) Instead, Intervenors filed a motion with the district
court seeking to stay trial pending this Court’s disposition of Rucho v. Common Cause
(No. 18-422) and Lamone v. Benisek (No. 18-726). (ECF 183.) The Secretary and the
Plaintiffs concurred with the relief sought by the Intervenors on the alternate
grounds that an adjournment of the trial would give the parties time to work out a
consent decree for approval by the district court. 1 (ECF 199, 200.)
In addition, the Michigan Senate and several individual Michigan Senators
(collectively, the Senate Intervenors) moved to intervene in the case on the eve of trial
(ECF 206, 208), which the district court granted. (ECF 237.)
After the district court indicated at a status conference on January 22, 2019,
that it was inclined to deny the Intervenors’ motion for stay, the Intervenors
petitioned for a writ of mandamus from this Court directing the district court to stay
the case, and also applied for a stay of all proceedings in the district court pending a
determination of that writ. Both the district court and this Court denied the

The district court rejected the proposed consent decree at the same time that it
denied Intervenor’s motions to stay the trial. (ECF 235.)

1

-5Intervenors’ motions to stay (No. 18A769, Feb. 4, 2019 Order; ECF 238), and this case
proceeded to a three-day trial on February 5, 2019.
Post-trial, the parties submitted hundreds of pages of proposed findings of fact
and conclusions of law, in addition to thousands of pages of deposition transcripts,
expert reports, and trial exhibits. (See generally ECF 268, n.4.)
The district court issued its opinion on April 25, 2019, concluding that all of
the challenged districts were unconstitutional partisan gerrymanders. Specifically,
the court adopted the standard articulated by the Rucho panel, 318 F. Supp. 3d at
380–88, and held that an electoral map constitutes partisan gerrymandering in
violation of the Fourteenth Amendment’s Equal Protection Clause where (1) “a
legislative map drawer’s predominant purpose in drawing the lines of a particular
district was to subordinate adherents of one political party and entrench a rival party
in power” (discriminatory intent) and (2) “the lines of a particular district have the
effect of discriminating against—or subordinating—voters who support candidates of
a disfavored party, if the district dilutes such voters’ votes by virtue of cracking or
packing” (discriminatory intent). (ECF 268, Op. & Order, Page ID 11616–17 (internal
quotation marks omitted).) The burden then shifts to the Intervenors to “prove that
a legitimate state interest or other neutral factor justified such discrimination.” (Id.,
Page ID 11617.)
Similarly, to demonstrate a violation of voters’ First Amendment associational
rights with respect to partisan gerrymandering, the court adopted a hybrid test from
Rucho, 318 F. Supp. 3d at 929, and Shapiro v. McManus, 203 F. Supp. 3d 579, 597

-6(D. Md. 2016), in holding that the Plaintiffs must show (1) that the challenged
districting plan was intended to burden individuals that support a disfavored
candidate or political party; (2) that the plan in fact burdened those individuals’
political speech or associational rights; and (3) that a causal relationship existed
between the discriminatory motive and the First Amendment burden. (Id., Page ID
11617–18.)
After finding that the Plaintiffs had standing on a district-by-district basis, the
court concluded that each of the challenged districts violated one or both of the
substantive standards and consequently enjoined their use in future elections. (Id.,
Page ID 11662–701.) As to the senate districts in particular, the court also concluded
that a special election is an appropriate remedy under the circumstances, given the
“particularly severe” nature of the violation. (Id., Page ID 11699.)
The court consequently ordered the Michigan Legislature to draw a remedial
map by August 1, 2019, with briefing on the process of formulating that map to follow.
(Id., Page ID 11702–04.)
On May 3, 2019, Intervenors sought a stay from the district court and
requested expedited consideration, demanding that the court rule by May 10, 2019.
(ECF 273, 274, 275, 276.) The district court denied those motions on May 6, 2019
(ECF 277), and Intervenors subsequently filed the instant stay applications. 2

Both the Resolution passed by the Michigan Senate to authorize intervention in this
case as well as the Resolution passed by the Michigan House authorizing Speaker
Chatfield, one of the House Intervenors, to speak on behalf of the entire House
contain inaccurate statements about the Secretary’s actions in this case. The
Secretary did not “file[] a motion to stay the proceedings” in this case on January 17,

2

-7ARGUMENT
A stay is considered “extraordinary relief” for which the moving party bears a
“heavy burden.” Winston-Salem/Forsyth Cty. Bd. of Ed. v. Scott, 404 U.S. 1221, 1231
(1971) (Burger, C.J., in chambers). Denial of a stay application “is the norm,” as “relief
is granted only in ‘extraordinary cases.’ ” Conkright v. Frommert, 556 U.S. 1401, 1402
(2009) (Ginsburg, J., in chambers). To show that a stay is warranted, the movant
must show “a reasonable probability” that the Court will “consider the underlying
issue sufficiently meritorious for . . . the notation of probable jurisdiction”; a
“significant possibility” that this Court will reverse the lower court; and a likelihood
of irreparable harm if that decision is not stayed. Times-Picayune Pub. Corp. v.
Schulingkamp, 419 U.S. 1301, 1305 (1974) (Powell, J., in chambers).
A showing that all three criteria have been met is not necessarily sufficient for
the issuance of a stay; rather, the Court may, in its “sound equitable discretion,” deny
the stay when the relative balance of harms to the applicant and respondent, as well
as the interests of the public at large, does not support it. Ind. State Police Pension
Tr. v. Chrysler LLC, 556 U.S. 960, 961 (2009) (per curiam); Barnes v. E-Sys., Inc. Grp.
Hosp. Med. & Surgical Ins. Plan, 501 U.S. 1301, 1304–05 (1991) (Scalia, J., in
chambers). Even where a stay is granted, the Court has discretion to tailor the scope
of the requested stay to accommodate the equities of the case and the balance of
2019, as the Resolutions state. (See ECF 208-4, Page ID 7823; MICH. HOUSE
RESOLUTION 2019-17.) Rather, the Congressional and House Intervenors sought to
stay trial in this case, pending the outcome of Rucho and Benisek. (ECF 183.)
Plaintiffs and the Secretary concurred in that motion on grounds that additional time
would be beneficial to working out a consent decree resolving the case, a process in
which Intervenors ultimately declined to participate.

-8harms. Trump v. Int’l Refugee Assistance Project, 137 S. Ct. 2080, 2087 (2017) (per
curiam).
The balance of equities here weighs against a stay in large part because, on
balance, Intervenors will not suffer irreparable harm without a stay; by contrast, if
this Court ultimately leaves the district court’s decision undisturbed, granting the
stay will likely have significant negative impact on the state’s ability to prepare for
the 2020 election cycle, including satisfying state election law deadlines. The worstcase scenario for the state Intervenors if this Court were to ultimately rule in their
favor on the merits: the state Legislature simply stops re-drawing the maps. That is
not irreparable harm.
I.

There is a significant possibility that the Court will find partisan
gerrymandering claims justiciable.
A. The district court’s opinion properly enforces the commands of the
federal Constitution.
States must execute their responsibilities in accordance with the commands of

the federal Constitution. Cooper v. Aaron, 358 U.S. 1, 19 (1958). As state actors, state
legislatures are bound by the First and Fourteenth Amendments to the federal
Constitution and may not enact laws that contravene these Constitutional mandates.
See U.S. Const. amend. XIV; Ex parte Commonwealth of Virginia, 100 U.S. 339, 346,
25 L. Ed. 676 (1879) (“The prohibitions of the Fourteenth Amendment are directed to
the States, and they are to a degree restrictions of State power. Such enforcement is
no invasion of State sovereignty. . . . . [I]n exercising her rights, a State cannot
disregard the limitations which the Federal Constitution has applied to her power.”);

-9NAACP v. Alabama, 357 U.S. 449, 460–61 (1958) (“It is beyond debate that freedom
to engage in association for the advancement of beliefs and ideas is an inseparable
aspect of the ‘liberty’ assured by the Due Process Clause of the Fourteenth
Amendment, which embraces freedom of speech.”) Redistricting is no exception.
Contrary to Intervenors’ insinuation, the enactment of an unconstitutional
redistricting statute through a normal legislative process cannot insulate that law
from compliance with the federal Constitution. See Lucas v. Forty-Fourth Gen.
Assembly of State of Colo., 377 U.S. 713, 737 (1964). In other words, regardless of the
political popularity of such a measure, state legislatures cannot invidiously
discriminate against voters on the basis of partisanship. Davis v. Bandemer, 478 U.S.
109, 118–21 (1986). The district court’s opinion is consistent with that structural
limitation.
B. Davis v. Bandemer remains the controlling precedent, and its
majority holding is clear that partisan gerrymandering claims are
justiciable.
Intervenors focus their stay request on the merits of their underlying appeal,
which is in turn premised on their predictions of how this Court will rule in Rucho
and Benisek, and how that ruling will impact the district court’s order in this case.
(See House & Congressional Intervenors’ Mot. for Stay at 9–19; Senate Intervenors’
Mot. to Stay at 9–22.) Their position, however, depends upon the Supreme Court
overruling Bandemer and holding that partisan gerrymandering claims are
categorically nonjusticiable, which there is no guarantee this Court will do. See

-10Rucho, Oral Arg. Tr. at 6–7 (U.S. Mar. 26, 2019) (“If you decided it in our favor on
justiciability grounds, I think you would have to overrule the Bandemer case.”).
By contrast, stare decisis, “a foundation stone of the rule of law,” counsels
strongly against presuming such a holding, in favor of “promot[ing] the evenhanded,
predictable, and consistent development of legal principles, foster[ing] reliance on
judicial decisions, and contribut[ing] to the actual and perceived integrity of the
judicial process.” Kimble v. Marvel Entm’t, LLC, 135 S. Ct. 2401, 2409 (2015);
Michigan v. Bay Mills Indian Cmty., 134 S. Ct. 2024, 2036 (2014). If anything, the
facts and circumstances that have developed since Bandemer—namely, the advances
in mapdrawing technology that have made it easier to identify and define voters
based on partisan affiliation with precision—have underscored the importance of
preserving some right of review in partisan gerrymandering cases. See Vieth v.
Jubelirer, 541 U.S. 267, 312–13 (2004) (Kennedy, J., concurring). Justice Kennedy’s
foresight in that regard has come full circle. Id. (“On the one hand, if courts refuse to
entertain any claims of partisan gerrymandering, the temptation to use partisan
favoritism in districting in an unconstitutional manner will grow. On the other hand,
these new technologies may produce new methods of analysis that make more evident
the precise nature of the burdens gerrymanders impose on the representational
rights of voters and parties.”).
Regardless, unless and until it is overruled, Bandemer remains the law of the
land, with five Justices reaffirming its core holding in League of United Latin
American Citizens v. Perry, 548 U.S. 399, 413–14 (2006): “In Davis v. Bandemer, the

-11Court held that an equal protection challenge to a political gerrymander presents a
justiciable case or controversy, but there was disagreement over what substantive
standard to apply.” (citation omitted). Any holding short of a complete discarding of
Bandemer will, based on the district court’s findings of fact and conclusions of law,
likely require some form of relief in this case. Thus, although Intervenors insist that
the issue of justiciability is “unresolved,” the only majority pronouncement on the
subject from this Court resides in Bandemer. The doctrine of stare decisis, of course,
makes overturning Bandemer unlikely.
In any event, this Court’s review of the present case on the merits is not
guaranteed. The first time the Rucho case came before the Court in Rucho v. Common
Cause, No. 17-1295, presenting issues of standing and justiciability, this Court
summarily vacated and remanded the case in light of its decision in Gill v. Whitford,
138 S. Ct. 1916, without considering the merits or noting jurisdiction. See Order List,
585 U.S. ___ (June 25, 2018). On Intervenors’ theory, it is plausible the Court could
do the same with this case in light of Rucho and Benisek.
II. Michigan voters are likely to be irreparably harmed if the district
court’s decision is not timely effectuated, and the public interest
weighs strongly against a stay.
“When constitutional rights are threatened or impaired, irreparable injury is
presumed.” Obama for Am. v. Husted, 697 F.3d 423, 436 (6th Cir. 2012). Moreover,
“[a] restriction on the fundamental right to vote . . . constitutes irreparable injury.”
Id. The three-judge district court in this case unanimously concluded that the
Enacted Plan durably and systemically discriminates against Michigan voters on the

-12basis of partisanship and suppresses and dilutes a certain political group of voters’
First Amendment rights. (ECF 268, Op. & Order, Page ID 11583.) Consequently, the
panel ordered the Michigan Legislature to enact a remedial map and the Secretary
to conduct a special election for the State Senate.
The Secretary is prepared to meet the obligations set out in the district court’s
order involved in implementing and administering new electoral maps and a special
senate election in 2020. 3 Given the practical realities of administering an election
cycle, however, particularly one where candidates will be running for major state and
federal offices, the Secretary and the people she serves will benefit from having as
much time as possible to implement the new maps required by the district court’s
order to “minimiz[e] confusion amongst the electorate,” reduce the costs that “always
come” with “[t]ransition periods,” and facilitate the organized and efficient
administration of the electoral system for all interested parties—including
candidates, political parties, voters, and county clerks, just to name a few. (House &

The Senate Intervenors are correct that the Secretary previously opposed a special
Senate election as a remedy for the constitutional violations, on the grounds it would
be a “substantial disruption to the normal electoral process.” At that time, no Senate
election was scheduled for 2020, and the Secretary did not know what the district
court would order or on what timeline. The election will now be conducted alongside
four other major elections, and could result in separate legal questions. Although this
poses logistical challenges, the Secretary has never taken the position that
conducting a special Senate election would not be possible. The district court
determined that holding the special election is equitable and gave the Secretary
sufficient time to organize and be prepared for it. The Secretary now seeks to preserve
that time and with it the practical ability to comply with the district court’s decision
and order. If the district court had not ordered a special election for the impacted
Senate districts, the Secretary would oppose Intervenors’ stay request for the same
reasons.
3

-13Congressional Intervenors’ Emerg. Mot. to Stay at 26; Senate Intervenors’ Emerg.
Mot. to Stay at 21.)
The comparative harm, as described by the Intervenors, is dwarfed by the
potential problems that could ensue if there is any substantial delay in the remedial
map-drawing process. Indeed, with respect to the State Senate special election in
particular, until the remedial plan is finalized and approved by the district court,
there remains uncertainty as to which Senate districts will be at stake in 2020.
A. Determining district lines well in advance of an election cycle is
critical to effectuating the public interest in an orderly electoral
system.
As a threshold matter, “it is always in the public interest to prevent violation
of a party’s constitutional rights.’ ” Deja Vu of Nashville, Inc. v. Metro. Gov’t of
Nashville & Davidson Cty., Tennessee, 274 F.3d 377, 400 (6th Cir. 2001); Elrod v.
Burns, 427 U.S. 347, 373 (1976) (“The loss of First Amendment freedoms, for even
minimal

periods

of time,

unquestionably

constitutes

irreparable injury.”).

Determining district lines as far as possible in advance of an election is crucial to
effectuating those constitutional rights of Michigan voters under the district court’s
order. It is also critical to the efficient and effective administration of candidate
applications and registrations, campaign finance disclosures, contribution limits,
regulation of electioneering practices and advertisement, and voter engagement and
registration overall. The longer that district lines remain unresolved, the more likely
it becomes that voters in the affected districts will become confused by or disengaged
from the political process, since they do not know for which candidates they will be

-14voting and consequently which candidates will be vying to represent them. These
concerns gain particular salience in light of the special election ordered by the district
court, since the Secretary’s office will be administering and monitoring State House,
State Senate, Congressional, and Presidential races within the State in 2020.
Michigan voters will likewise be splitting their attention among those key races, in
addition to the other measures on the ballot.
B. Waiting months to begin the redistricting process would cause
irremediable harm to Michigan voters, as it risks creating chaos in
the 2020 electoral system or, alternatively, making substantive
relief impossible.
Consequently, it is Michigan voters who are likely to be irreparably harmed if
the district court’s decision is stayed in the interest of Intervenors’ convenience. As
the time until the next election cycle decreases, the cost and burden of implementing
a new electoral map inversely increase. At some point, once the election cycle has
begun in earnest, it becomes, as a practical matter, impossible to implement a new
map in time for the 2020 elections. In that way, this case is distinguishable from
Rucho and Benisek.
The parties in those cases consented to the entry of a stay in the district court
on the express premise that Supreme Court briefing and argument would be
completed in time for any remedial plan to be effectuated by the 2020 elections. (See
Plaintiffs’ Statement of Conditional Consent to a Discretionary Stay Pending Appeal,
Benisek v. Lamone, No. 13-cv-3233 (D. Md. Nov. 15, 2018), ECF 227; Response of the

-15Common Cause Plaintiffs to the Court’s Order of September 4, 2018, Common Cause
v. Rucho, No. 1:16-CV-1164-WO-JEP (M.D.N.C. Sept. 5, 2018), ECF 152.)
The same arrangement would not be feasible in this case. Assuming a briefing
schedule similar to Benisek—where there were approximately seven and a half
months between the issuance of the opinion and the end of the Supreme Court’s
term—a decision would be unlikely to issue before the end of the calendar year. And,
again, assuming that the district court’s opinion remains wholly in place without any
further proceedings necessary, the order provides the Michigan Legislature with
effectively four months after that date to draw and enact a compliant map and brief
the merits for the court. (ECF 268, Op. & Order, Page ID 11702–04.) That timeline
would create the actual electoral chaos that Intervenors speculate will result from
the district court’s order.
By statute, Michigan’s primary election will be held on Tuesday, August 4,
2020. See Mich. Comp. Laws §§ 168.132, 168.534. Candidates for the Michigan House,
Michigan Senate, and U.S. House must be nominated for that primary by the
fifteenth Tuesday prior to that date: Tuesday, April 21, 2020. See Mich. Comp. Laws
§§ 168.133, 168.163. To be placed on the ballot for that primary election, each
Congressional candidate must submit a nominating petition signed by at least 1,000
voters from the congressional district. See Mich. Comp. Laws §§ 168.133, 168.544f.
And, as the House and Congressional Intervenors astutely summarize, for candidates
to even consider running for one of those primary nominations, they must know the
boundaries of their district:

-16Planning for election campaigns takes time. Candidates must plan and
organize ballot access efforts, raise funds sufficient to conduct
campaigns and make difficult decisions on whether and how to run for
office. Further, the parties and political organizations must conduct
candidate recruitment. This is all reliant on knowing what the
composition of the political districts are.
(House & Congressional Intervenors’ Emerg. Mot. to Stay at 24–25.)
What is more, once those lines have been drawn and candidates identified,
local election clerks need sufficient time to ensure ballots can be printed, delivered to
military members serving overseas, and issued to absentee voters, and to confirm
that assigned ballot tabulators are capable of recognizing and accurately counting
ballots, particularly in districts with precinct splits. An expeditious determination of
district lines is also important to voters circulating, and election officials
administering, statewide ballot question petitions under Article 2, Section 9 of
Michigan’s constitution (e.g., initiatives and referenda), which are (recently) subject
to signature limitations by congressional district. See 2018 Public Act 608 (Mich.
Comp. Laws § 168.471). 4
In addition, Michigan’s 2020 Democratic presidential primary is scheduled for
March 10, 2020. 5 All precinct boundaries must be finalized 60 days prior to that
election (or January 10, 2020) to allow sufficient time for clerks to program and test
ballots, order adequate quantities of ballots, and issue absent voter ballots. The
results of this primary are also certified on a district-by-district basis for use by the
Michigan’s Election Law also establishes deadlines by which ballot question
petitions are to be filed with the Secretary of State for canvassing, which is as early
as the May before the statewide November election. Mich. Comp. Laws § 168.471.
4

5

See https://projects.fivethirtyeight.com/2020-primaries/democratic/michigan/.

-17national party in allocating delegates at its presidential nominating convention. See
Congressional Research Service, THE PRESIDENTIAL NOMINATING PROCESS

AND THE

NATIONAL PARTY CONVENTIONS, 2016 at 11 (Dec. 30, 2015). Changing districts
midstream would be impractical at best, as would the implementation of any relief
ordered by the district court if delay occurs. Waiting to even start drawing remedial
maps, as the Intervenors encourage, will thus make meeting important election
deadlines too difficult, if not impossible.
C. Intervenors have not shown that they would suffer any irreparable
harm by beginning the process of drawing constitutional maps in
the interim.
Conversely, the State has no legitimate interest in enforcing a law that is
unconstitutional. Hispanic Interest Coal. of Ala. v. Governor of Alabama, 691 F.3d
1236, 1249 (11th Cir. 2012). Preventing a state from enforcing an unconstitutional
law in fact advances the public interest. See Giovani Carandola, Ltd. v. Bason, 303
F.3d 507, 521 (4th Cir. 2002). Further, Intervenors have not actually adduced any
evidence of the costs, burdens, and timing of redistricting but simply conjecture that
it will require “thousands of person hours to collect data, draw maps, seek public
input, hold legislative hearings, vote on legislation, and present it to the Governor.”6
(Mich. Senate Intervenors’ Emerg. Mot. to Stay at 25.) Nor do they account for the
numerous alternative district maps drawn by Republican legislative staff and

As the Congressional Intervenors do not vote on the district maps and otherwise
play no formal role in the redistricting process, it is unclear in that regard how the
district court’s opinion and order would cause them any harm warranting relief at
this point, let alone irreparable harm.

6

-18consultants during the 2011 redistricting, or the 1,000+ alternative maps produced
by Plaintiffs’ expert Jowei Chen, Ph.D.
In 2011, it took the Michigan Legislature three months to draw districts that
the district court deemed unconstitutional, and Intervenors have not explained why
they cannot remedy that violation on the same timeline. (See ECF 250, Test. of Jeffrey
Timmer, Feb. 7 Trial Tr. at 157, Page ID 9344 (testifying that Legislature received
2010 census data in March 2011).) 7 Moreover, if this Court were ultimately to find
the district court’s order improper, the only harm to Intervenors is the opportunity
cost of time and effort spent on redistricting. In other words, if this Court rules in
their favor in the interim, Intervenors can simply stop working on the maps. By
contrast, a prolonged delay of the district court’s order in this case would exacerbate
the practical difficulties of starting work on the maps in the first instance. The
comparative balance of harms, consequently, weighs against a stay.
Intervenors also point to this Court’s decision to stay the district court’s first
opinion in Rucho pending the state’s appeal in that case. (House & Congressional
Intervenors’ Mot. to Stay at 9, 15.) But “the propriety of a stay is dependent upon the
circumstances of the particular case,” as the “traditional stay factors contemplate
individualized judgments in each case.” Ind. State Police Pension Tr. v. Chrysler LLC,

The Enacted Plan was passed by the Michigan Legislature and signed by the
Governor in June 2011.
http://www.legislature.mi.gov/(S(ddwuiqc5ct2wp4hy3xf5p4tq))/mileg.aspx?page=get
Object&objectName=2011-HB-4780;
http://www.legislature.mi.gov/(S(ddwuiqc5ct2wp4hy3xf5p4tq))/mileg.aspx?page=get
Object&objectName=2011-SB-0498.

7

-19556 U.S. 960, 961 (2009) (citing Nken v. Holder, 556 U.S. 418, 433 (2009)) (internal
quotation marks omitted).
In Rucho, the district court struck down North Carolina’s congressional
redistricting plan as a partisan gerrymander in violation of the Equal Protection
Clause, First Amendment, and Elections Clause. See generally Common Cause v.
Rucho, 279 F. Supp. 3d 587 (M.D.N.C. 2018). The court issued its opinion on January
9, 2018, and required the Legislature to enact a remedial redistricting plan by
January 24, 2018—a mere two weeks later. Id. at 691; Rucho v. Common Cause, No.
17A745, Emerg. App. for Stay at 3–4, 10 (Jan. 12, 2018). In their stay application, the
state defendants in Rucho emphasized the irreparable harm likely to result from the
extremely short deadline for drawing new maps and the effective impossibility of
implementing a new map prior to the commencement of the state’s impending voter
assignment and candidate filing period on February 12, 2018. See Rucho, Emerg.
App. for Stay at 19–22. The deadlines in this case are not so pressing.
Further, given the timing of the case, Rucho potentially involved relief for two
election cycles (2018 and 2020). Thus, even with a stay of the district court’s January
9, 2018 order, Rucho retains the possibility of implementing a remedial map in time
for the 2020 election cycle. Indeed, the Rucho parties’ current consent stay in the
district court is premised on this possibility. See Rucho, ECF 152, Case No. 1:16-cv01026-WO-JEP (M.D.N.C. Sept. 5, 2018). As explained above, the same is not true
here: if the final resolution of this case remains pending into 2020, there is a

-20substantial probability that implementing a remedial map would no longer be
feasible.
To the extent that Intervenors are concerned about adding redistricting to the
legislative agenda, Michigan’s full-time Legislature always retains the option to
modify its current session schedule, which currently provides for convening three
days per week, with a summer recess scheduled for the majority of the months of July
and

August.

See

Session

Calendar

2019,

MICH.

SENATE,

https://www.senate.michigan.gov/maincalendar.html; 2019 Session Schedule, MICH.
HOUSE

OF

REPRESENTATIVES, available at http://house.michigan.gov/calendar.asp.

“[T]he constitutional imperatives of the Equal Protection Clause must have priority
over the comfortable convenience of the status quo.” Williams v. Illinois, 399 U.S.
235, 245 (1970). Thus, Intervenors’ argument that they have other, more important
legislative priorities—aside from correcting the constitutional harms at issue here—
is not reflected in their current summer calendar schedule. 8 Redistricting, in other
words, need not take away from currently scheduled legislative sessions, for which
the full-time Legislature could continue to reserve its other “priorities.”
In short, Intervenors have failed to demonstrate that they will be irreparably
harmed by the district court’s order. Rather, the public interest and balance of harms
strongly favor denying a stay in this case.

As the House and Congressional Intervenors noted in the district court, “the next
opportunity for training on the redistricting process for legislative staff is . . . a
currently scheduled National Conference of State Legislatures (NSCL) seminar that
begins on June 20, 2019 in Providence, Rhode Island.” (ECF 273, Mot. for Expedited
Briefing, Page ID 11724.)
8

-21-

CONCLUSION
For all of the foregoing reasons, the Secretary opposes the Congressional and
State House Intervenors' Emergency Application for Stay (No. 18All 71) and the
Michigan Senate and Senators' Emergency Application for a Stay Pending Resolution
of Direct Appeal to this Court (No. 18All 70) and respectfully requests that this Court
deny the applications for stay.
Respectfully submitted,
Dana Nessel
Michigan Attorney General

I

/

_,/

Fattwa A. Hammoud
Solicitor General
Counsel of Record
Scott R. Eldridge
Erika L. Giroux
Michael J. Hodge
Special Assistant Attorneys General

MILLER, CANFIELD, PADDOCK
AND STONE, P.L.C.
One Michigan Avenue, Suite 900
Lansing, Michigan 48933
(517) 487 -2070

Dated: MAY 20, 2019

B. Eric Restuccia
Deputy Solicitor General
Christopher M. Allen
Assistant Solicitor General
Department of Attorney General
P.O. Box 30212
Lansing, Michigan 48909
hammoudfl@michigan.gov
restucciae@michigan.gov
allenc28@michigan.gov
(517) 335-7628
Counsel for Respondent
Michigan Secretary of State

